<html>
<title> - SHUTDOWN: EXAMINING FEDERAL GOVERNMENT CLOSURE IMPACTS ON THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 113-543]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-543

                 SHUTDOWN: EXAMINING FEDERAL GOVERNMENT
              CLOSURE IMPACTS ON THE DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
       
              
                                 _______
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE 

88-273 PDF                  WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                 

                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                       Thursday, January 30, 2014

Hon. Eleanor Holmes Norton, Congresswoman from the District of 
  Columbia.......................................................     3
Hon. Tom Davis, Former Chairman, House Government Reform 
  Committee......................................................     6
Allen Y. Lew, City Administrator, Executive Office of the Mayor, 
  The District of Columbia.......................................     8
Robert Vogel, Superintendent of the National Mall and Memorial 
  Parks, National Park Service...................................    11

                     Alphabetical List of Witnesses

Davis, Hon. Tom:
    Testimony....................................................     6
    Prepared statement...........................................    24
Holmes Norton, Hon. Eleanor:
    Testimony....................................................     3
    Prepared statement...........................................    21
Lew, Allen Y.:
    Testimony....................................................     8
    Prepared statement...........................................    27
Vogel, Robert:
    Testimony....................................................    11
    Prepared statement...........................................    38

                                APPENDIX

Questions and responses for the Record from:
    Mr. Lew......................................................    40

 
                      SHUTDOWN: EXAMINING FEDERAL
         GOVERNMENT CLOSURE IMPACTS ON THE DISTRICT OF COLUMBIA

                              ----------                              


                       THURSDAY, JANUARY 30, 2014

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. We will call this meeting to order. Good 
afternoon, and welcome to the Subcommittee on Emergency 
Management, Intergovernmental Relations, and the District of 
Columbia. We are here today to look at how the people of 
Washington, DC, are impacted when the Federal Government shuts 
down, as it did most recently last October, and what steps can 
be taken to prevent the harm in the future.
    People in all 50 States, including my home State of Alaska, 
felt the pain of a shutdown, but our Nation's capital, 
especially tied to Federal operations with such large 
proportions of Federal workers and a city government that must 
wait for Congress to approve its spending in the District of 
Columbia, faces unique challenges.
    I am honored to be joined at today's hearing by four 
distinguished public servants who have worked for many years in 
many different ways to help this city succeed and grow. Their 
different perspectives and insights are vital to understanding 
what happened and how to move forward.
    As I have said many times, the government shutdown was 
totally unnecessary and inflicted needless economic damage on 
families and businesses across this country. When too many in 
Congress put politics ahead of working together on commonsense 
solutions to our problems, Congress fails to do its basic job 
of keeping our government running.
    I was encouraged that, in the end, Members of the House and 
Senate were able to come together in a bipartisan way to forge 
a deal that ended the shutdown. Our Alaska delegation set a 
good example of how we can work across party lines to solve 
problems. But it is essential that in putting the unnecessary 
crisis behind us we do not put our heads in the sand and ignore 
the effects of the shutdown on people's lives. It is important 
for us to know the consequences of failure to compromise so 
that we are even more motivated to avoid future shutdowns.
    In my home State of Alaska, we have the third highest 
proportion of Federal workers of any State. Over 16,000 
Alaskans were furloughed from their jobs, left in limbo as to 
whether or not they would be paid. That uncertainty hits Alaska 
families hard. With such a high cost of living, there are not 
many Alaskans who have the luxury of being able to skip a few 
paychecks while the Federal Government gets its act together.
    Our King Crab fisheries could not open on schedule because 
the Federal workers in charge of issuing permits and handling 
fishing quotas were told to stay home. That is real money out 
of the pockets of Alaska fishermen. That is bills that are not 
paid, goods and services that are not bought. It is hard to 
fully calculate the final cost to my State, but some have put 
it as high as $39 million.
    During the early part of the shutdown, 5,000 members of our 
armed services were furloughed. Veterans were turned away when 
attempting to file medical claims. And benefit claims for 
Alaska's 74,000 veterans were processed much more slowly. It is 
outrageous and unacceptable that Congress' dysfunction 
jeopardized the hard-earned pay and benefits of the men and 
women who put their lives on the line to defend our country.
    I could talk all day about Alaska and what the shutdown 
meant for my State at least for the rest of our hearing, but 
the main focus today is to discuss how the shutdown has 
impacted Washington, DC. We need to hear how the District of 
Columbia was affected and what we can do to move forward to 
ensure that these pointless shutdowns do not keep happening. I 
look forward to the hearing, and I know we have a great line up 
of guests here today, and I really greatly appreciate you 
taking the time.
    Also I want to recognize Senator Paul Strauss, the shadow 
Senator for Washington, DC, in the audience today. Thank you 
very much.
    First, we have four panelists, and we thank you. 
Congresswoman Holmes Norton, this is the first time I have been 
able to be here and stay without being rushed out for a vote, 
so I think I will say this, even though it is not true: I made 
sure that vote happened before this hearing so we could be 
here. [Laughter.]
    But it seems like every time you are here, I am rushing 
out. But thank you for being here, and as the sole 
Congressional representative of the District of Columbia since 
1991, you have been incredible in your advocacy for Washington, 
DC, and I know meeting with myself and others, and thank you 
for being here today. Let me start with you, and then we will 
just go down the list here.

       TESTIMONY OF THE HON. ELEANOR HOLMES NORTON,\1\ A 
    REPRESENTATIVE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Chairman Begich, first of 
all, for your attention to the District, for your assistance to 
the District, and certainly for this hearing. It is a hearing 
perhaps provoked by your own experience initially. I did not 
recognize that Alaska had the third highest number of Federal 
employees, so I know your constituents must have felt this very 
deeply. But we appreciate that you are able to bring that 
experience to what the District of Columbia experienced during 
that time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Congresswoman Norton appears in the 
Appendix on page 21.
---------------------------------------------------------------------------
    Mr. Chairman, I am going to summarize my testimony and ask 
that my entire testimony be entered into the record.
    Senator Begich. Without objection.
    Ms. Norton. Mr. Chairman, it may have taken a shutdown of 
the Federal Government to do it, but I think it is now pretty 
clear how wrong it is, how absurd it is, to allow the local 
funds of a local jurisdiction to be caught up by the Federal 
Government at any time, certainly during a shutdown, ignoring 
the oldest American government principle, which is that local 
control of local dollars for local citizens.
    Mr. Chairman, it is really not surprising to look at the 
polls and see that across all lines, overwhelmingly Americans 
support budget autonomy for the District of Columbia. I think 
that number would probably be increased after this hearing when 
they understand that a shutdown of the District could occur 
because of the absence of budget autonomy. A large majority of 
Republicans, 72 percent, support budget autonomy for the 
District, 75 percent of Independents, 71 percent of Democrats.
    After the unnecessary debacle of the shutdown, we are 
asking for the return of budget autonomy to the District of 
Columbia. We say ``return,'' Mr. Chairman, because the District 
of Columbia had autonomy over its own budget for the first 80 
years of its experience. Mr. Chairman, I was a constitutional 
lawyer before I came to Congress, and constitutional lawyers 
and the courts will tell you that when you look at what the 
framers intended, you look at the period closest to when the 
Constitution was passed, during that period and for 80 years, 
the District of Columbia had control over its own budget. There 
was back-and-forth about how much Home Rule, but isn't it 
interesting to note that there was no doubt that local funds 
should be in the hands of local officials?
    It was not until 1878 that Congress took away budget 
autonomy, and at that point it is interesting to note that it 
also wiped out what had been various forms of Home Rule and 
gave the District the most undemocratic regime the United 
States has ever had, a presidentially appointed three-
commissioner form of government. That meant that in the 
Nation's capital there was no Mayor, there was no Council, and 
there certainly was no Delegate to the Congress. It was not 
until 40 years ago that we began to implement what is now 
called the Home Rule Act of 1973.
    Mr. Chairman, as I sit here in the Senate, I want to remind 
you that the Senate version of that 1973 Home Rule Act, in 
fact, did have budget autonomy for the District of Columbia. It 
was the House that rejected that provision, and the Home Rule 
Act passed without it. We are hopeful--that Congress may be 
close to righting itself again on this issue.
    Not long after I came to the Congress in 1995 and 1996, 
there were multiple shutdowns of parts of the Federal 
Government, and to his credit, Speaker Newt Gingrich, whom I 
worked closely with during that period--Congressman Davis also 
was my close partner throughout that period. But I would go to 
Speaker Gingrich's office as parts of the Federal Government 
shut down, and then the Congress would get through one 
appropriation, and the rest, but the District appropriation had 
not gone through, and I would say, ``Newt, you are not going to 
let them shut down the District government, are you?'' And sure 
enough, he kept the District government open during these 
shutdowns.
    In 2004, the Republican-led Senate approved by unanimous 
consent a bill granting the District budget autonomy. That bill 
died in the House. President Bush, during 3 years of his 
Administration, endorsed budget autonomy for the District of 
Columbia.
    I am gratified that the notion of leaving the District with 
control over its own $6 billion raised from its own residents 
and businesses should remain in the District has grown worth 
bipartisan support in the last couple of years. In the 112th 
Congress Senator Lieberman and Senator Collins introduced a 
bipartisan bill to give the District budget autonomy. My good 
friend in the House whose committee has jurisdiction over the 
District of Columbia, Chairman Darrell Issa, strongly supports 
budget autonomy and has been able to get his own bill, which 
has most elements of budget autonomy, out of his Committee. The 
bill would still have to be perfected, but he has gone that 
far.
    We have the same support from the President of the United 
States. The President went so far, Mr. Chairman, in his fiscal 
year (FY) 2014 budget to include actual language giving the 
District budget autonomy. The Senate Appropriations Committee 
passed that language. We should have budget autonomy today. The 
House did not allow that change to go through.
    During the 16-day shutdown, I was gratified to hear some of 
our Republican colleagues on the floor. They did try to get the 
District out of the morass when they were trying to reopen the 
government agency by agency, and I understand how concerned 
Democrats and the President were with piecemealing 
appropriations. Of course, DC is not part of the Federal 
Government, so we really felt that we had been caught betwixt 
and between in a situation we could do nothing about.
    But Representative Ander Crenshaw, who is the Chairman of 
the Appropriations Subcommittee with jurisdiction over the 
District, said during his floor remarks, ``The District's 
locally raised funds should not be withheld from them during 
this current Federal shutdown. This disagreement that the 
Republicans and the Democrats are having over Federal spending 
should not stop the District from using its own locally raised 
funds like any other city in America.'' I do not believe our 
appropriators ultimately would oppose budget autonomy for the 
District.
    The fiscal year 2014 continuing resolution (CR) that 
reopened the Federal Government did make a breakthrough for the 
first time. It permitted the District to spend its money 
throughout 2014, although if you will recall, Mr. Chairman, the 
Federal Government was spending its money only until very 
recently, and it was spending at 2013 levels. That was the 
first time that we had been able to keep the District open and 
going on next year's funding even though the Federal Government 
itself had not yet been funded for the rest of the fiscal year.
    Perhaps even more significantly, though the Congress did 
not grant us the permanent shutdown authority that we have 
asked, just give us no-shutdown authority, it did permit the 
District to spend its local funds throughout fiscal year 2015 
during a Federal Government shutdown. So that means even if 
there are disagreements between the House and the Senate or the 
Congress and the Administration, there will be no shutdown 
threat to the District until October 1, 2015. I suppose we 
ought to be happy and go home.
    Disputes over the Federal budget, interestingly, have not 
ever had anything to do with D.C. or its local funds. Indeed, 
the fiscal condition of the District of Columbia is among the 
best in the United States. That is one of the reasons that 
Chairman Darrell Issa, after a hearing of his own on the 
District, immediately came out for budget autonomy for the 
District of Columbia. He noted that not only had the District, 
unlike the Federal Government, had no problem balancing its 
budget, but that we have a $1.5 billion reserve fund because 
the District government is very careful.
    We do not believe, Mr. Chairman, that there is a single 
Member of the Congress who wants to bring a big, complicated 
city to its knees. We think they do not want to do it for the 
District's sake, and we think they also understand that the 
District of Columbia serves the Congress itself, Federal 
officials, businesses, foreign embassies. No one, I think, 
intends this. The waste captured by requiring the District to 
bring its local budget here is startling. The District, even if 
it does not shut down, has to go through the same contingency 
exercise that the entire Federal Government goes through in 
case there is a shutdown. Even if the District is kept going 
because we are operating under CRs, and, by the way, thanks to 
Republican appropriators some years ago, when the Federal 
Government operates under one of those CRs, the District 
operates at next year's funding levels. After all, we have 
already passed our budget.
    But think about what operating under a CR does to a local 
government. If there is any threat of a District shutdown, Wall 
Street notices that. It already notices that we have to come 
two places to have our budget passed in the first place. 
Successive CRs greatly hinder the operations of the District. 
They make it difficult to plan our activities because you are 
still operating on a CR. The city's partners and Wall Street 
can charge a risk premium due to uncertainty created by 
successive CRs.
    Budget autonomy would eliminate the uncertainty that is 
inherent in the Congressional approval process. The unnecessary 
costs it adds to our taxpayers, the inaccurate revenue 
forecasts that we must make because we are now in your budget 
year, not the same budget year that, for example, Alaska and 
almost every other jurisdiction in the United States is in, 
countless operational problems. We would be most happy, Mr. 
Chairman, to be able to use the typical State and local 
government fiscal year from July 1 to June 30. We cannot do 
that. The reason that Alaska is on that fiscal year goes back 
to the period when every government understood that you want to 
get your budget done before school opens. Our budget is done 
after school opens. That causes great hardship in and of 
itself. If for no other reason, we want to go on the same 
fiscal year everyone else has.
    Mr. Chairman, if I may say so, the District budget 
consumes--unlike this Committee, which brings us here when 
there is something that has to be done, imagine what this does 
to the entire Senate and House and to its Appropriations 
Committees. They have to have Subcommittee time and Committee 
time and floor time on somebody's budget they know nothing 
about, care nothing about, could be less interested in. If that 
is not the very definition of ``nonsense,'' I do not know what 
is.
    Mr. Chairman, I am very grateful that recent history 
demonstrates that the Congress itself may be moving toward D.C. 
budget autonomy. I just hope it gets up its nerve. We hope that 
last year's shutdown will be the final chapter on why the 
city's local budget should become effective upon passage by the 
District of Columbia.
    Thank you again for this hearing, Mr. Chairman.
    Senator Begich. Thank you very much, Congresswoman.
    The next person we have is former Congressman Tom Davis, 
who served the people of Virginia's 11th District for 7 years. 
He was Chairman of the House Oversight and Government Reform 
Committee from 2003 to 2007 and had jurisdiction over the 
District of Columbia. He also is an incredible trivia person. I 
served on one of his teams, and we won. I was just the pawn in 
the game. You were the official. Please.

  TESTIMONY OF THE HON. TOM DAVIS,\1\ FORMER CHAIRMAN, HOUSE 
                  GOVERNMENT REFORM COMMITTEE

    Mr. Davis. Senator, thank you so much for holding this 
hearing and for paying attention to this issue. I think this is 
just an oversight on the part of the Congress. I do not think 
anybody ever intended this to occur. But like so many things, 
it happened, it has continued to happen, and perhaps we can get 
a fix out of this. So I really thank you for holding this.
---------------------------------------------------------------------------
    \1\ The prepared statement of Congressman Davis appears in the 
Appendix on page 24.
---------------------------------------------------------------------------
    When I came into Congress in 1995, the city was in pretty 
dire straits. Their bond rating was junk bond status. The city 
was close to bankruptcy. Crime was high. But a lot of things 
have occurred over the last 20 years. It has been a remarkable 
turnaround. It is a far different city today.
    I would ask that my full comments be made part of the 
record.
    Senator Begich. Without objection.
    Mr. Davis. The crime rate has fallen dramatically, its 
budget is running in the black, and I believe it has probably 
got the largest surplus of any city in the United States, which 
does not do you any good if you cannot spend it. But they have 
done a very good job, and I think the need now for 
Congressional micromanagement is no longer present. The city 
has shown itself to be a responsible steward of its own 
destiny. The Control Board also remain dormant over the city if 
they should fail to balance their budget in any one year, so 
that is a strong incentive for them to continue to get 
surpluses out of their budget.
    It is difficult to substantiate why the city's own budget, 
raised through local taxes from local citizens, should be 
frozen or delayed just because Congress has not been able to 
pass an Appropriation bill. Although this is a relatively rare 
occurrence, it did happen twice, in 1995--and we worked to 
relieve that somewhat--and once last year. A Federal shutdown 
wreaks havoc on the city's budget and operations. It 
jeopardizes not only city services but the operations of the 
Federal Government. And even if you deem all the employees 
essential, as the Mayor said, they still do not get paid. So 
there are a lot of issues with that that we maybe have a chance 
to correct.
    No other city in the world operates in this manner and with 
these restrictions. We have to ask ourselves, ``Why should the 
capital city, the beacon light for the free world, be subject 
to these constraints?'' And the answer, of course, is that it 
should not. City taxpayers should be able to keep their city 
running with city tax dollars regardless of what budget 
deadlocks occur here on Capitol Hill.
    Our Founding Fathers reserved the District Clause in the 
Constitution because they were not sure what would happen. This 
was a city--it was originally going to go to Philadelphia, but 
time ran out in one Congress. In an ensuing Congress, a deal 
was reached where the new government would pick up the debt 
from the Revolutionary War, which the North wanted, and the 
South would get the capital. And we knew it would be 100 square 
miles, but they did not know much else. So they put a District 
Clause in the Constitution giving Congress plenary power over 
laws pertaining to the District. I do not think they could have 
foreseen a city of 600,000 people with the myriad of issues 
that have been raised in the ensuing years. So, in their wisdom 
they said Congress shall have exclusive authority over that.
    When the city's home rule was restored in the 1970s, after 
nearly a century of appointed leadership, Congress also 
inserted a layover provision of 30 legislative days to 
disapprove any ordinance passed by the City Council. What we 
need to understand is the city is now passing everything on an 
emergency basis. It is taking a lot of time and effort. 
Congress has not exercised this layover provision in the time I 
was in Congress as over the last 20 years. Only on a few 
occasions does it ever impose its will, usually through the 
appropriation process and usually on some hot-button social 
issue. So the need for that layover provision is also 
something, I think, that needs to be looked at. It is rarely 
utilized. I know it has not been utilized in the last 20 years 
and I think for some time before that. And that would also give 
the city more autonomy, I think, and efficiency in the way it 
conducts itself.
    It is just hard to believe that our Founders would have 
envisioned the inaction of Congress not passing a budget would 
shut down the operations of the municipal government that was 
supposed to protect it, and this has been the unintended 
consequence of the government shutdown. And while it may be 
another decade before we face the issue again, this is an 
appropriate time for Congress to address this issue.
    In doing so, I just want to emphasize Congress does not 
give up anything. The District Clause reserves the power of 
Congress to step in at any time. But the change would allow the 
city and the continuity in city government that not only would 
make it more efficient, but it would be predictable. It also 
holds the city elected officials responsible for bad results 
instead of just blaming Congress. There is no reason to link 
the operation of local government with local money, to the 
dysfunction of the Congressional budget process.
    There have been sticking points in the past around some of 
the riders that Congress has put on particularly the abortion 
issue. If it rides up, what does this do to that? Congress 
reserves the power on an annual basis with its Appropriation 
bill to put on any rider that it would want. All we are asking, 
I think, right here is that the city's budget continues. 
Congress does not lose that constitutional power at any single 
time. But having that predictability and continuity is 
essential, and I think looking at this layover clause as well, 
it is long overdue to try to remove that. The city has shown 
itself a good steward over the last 20 years, and so I would 
ask for that as well.
    Thank you, Mr. Chairman. I appreciate it.
    Senator Begich. Thank you very much.
    Next we have the District of Columbia City Administrator 
Allen Lew, who has managed the daily operations since 2011. He 
has a distinguished record of service in the public and private 
sectors, including work to improve D.C. public education and 
supports infrastructure. Mr. Lew.

  TESTIMONY OF ALLEN Y. LEW,\1\ CITY ADMINISTRATOR, EXECUTIVE 
         OFFICE OF THE MAYOR, THE DISTRICT OF COLUMBIA

    Mr. Lew. Thank you, Mr. Chairman. My name is Allen Lew. I 
am the City Administrator of the District of Columbia. Thank 
you for the opportunity to provide testimony on behalf of Mayor 
Vincent Gray on the impact of the Federal Government shutdown 
on District government operations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lew appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    From October 1, 2013, through October 16, 2013, there was a 
lapse in Federal appropriations, also referred to as a 
``Federal Government shutdown,'' which affected various Federal 
agencies, departments, and offices. Since the District's budget 
is subject to appropriation by Congress, the shutdown impacted 
the operations of the District government.
    During prior lapses in Federal appropriations, the District 
designated only a subset of District government operations to 
continue during the shutdown. Several agencies, such as the 
Department of Motor Vehicles, the Department of Parks and 
Recreation, and the District of Columbia Public Library would 
completely close, while many other agencies operated on a 
skeleton staff with many activities suspended.
    This year, the Mayor took the bold and unprecedented step 
of designating all operations of the District government as 
essential to the public safety, health, or protection of 
property, and therefore, all District operations were exempt 
from the shutdown. As far as I am aware, this is the first time 
ever under Home Rule that the District government remained 
fully open during a lapse in appropriations.
    Although the District remained open, the lapse in Federal 
appropriations did impact District government operations. For 
the most part, however, the restriction on expenditures limited 
the District's ability to pay fiscal year 2014 operating costs, 
such as contractors and staff, to funds available in the 
Contingency Reserve Fund and the Emergency Reserve Fund.
    During the shutdown, the majority of funds expended or 
allocated by the District were from the Contingency Reserve 
Fund. We realize that we would have to establish a rigorous 
process to authorize use of the Contingency Reserve Fund. In 
order to limit expenditures to less than the average daily 
amount and thereby extend the government's ability to operate 
from this Reserve Fund, as part of this authorize process each 
agency was required to submit to the Office of the City 
Administrator a formal request to access the Contingency 
Reserve Fund if the agency believed that a payment to a 
contractor or other third party should be made. Given the 
limited availability of funds, each request was closely 
reviewed by the relevant OCA analyst and legal staff to examine 
a variety of factors, including the following:
    Whether the expenditure of funds was necessary, rather than 
merely the obligation of funds. For instances where only an 
obligation of funds was needed, generally to enter into a 
contract, we established a separate authorization process that 
did not require using the Contingency Reserve Fund. 
Establishing this process took a few days of drafting, review, 
and coordination among our office, the Office of the Chief 
Financial Officer (CFO), the Office of the Attorney General, as 
well as the Office of Contracting and Procurement. So during 
the first days of the shutdown, some allocations of the 
Contingency Reserve Fund were made for obligations rather than 
expenditures;
    The degree to which the payment or obligation was necessary 
to protect the public health, safety, and welfare. Requests 
that did not have a strong connection to the protection of 
public health, safety, and welfare received lower priority;
    Whether any other source of funds could be used to pay the 
expenditure. For some requested payments, alternate sources of 
funds were available, such as capital funds or Federal grant 
funds. In addition, many of the invoices the District received 
during the shutdown were for services that were provided during 
fiscal year 2013. These invoices could be paid or were paid 
with fiscal year 2013 funds and, therefore, did not require the 
use of the Contingency Reserve;
    Whether payment could be delayed. Often we found that we 
had flexibility on when a payment could be made. If we were 
able to delay payment until later in the fiscal year, we did so 
and avoided use of the Contingency Reserve;
    Whether the full payment needed to be made. If we 
determined that payment was critical and time-sensitive, we 
would further review the agency's request to determine whether 
a partial or short-term payment could be made. In many 
instances, we were able to limit the expenditure or obligation 
to a 2-week or 1-month period, thereby limiting our draw on the 
Contingency Reserve Fund.
    Because of these stringent procedures, we were able to 
limit non-salary expenditures and obligations from the 
Contingency Reserve Fund to under $20 million during the entire 
shutdown period. Of the total amount expended or allocated, the 
following five were $1 million or more:
    $7.4 million for the Department of Human Services for the 
Temporary Assistance for Needy Families;
    $3.6 million for United Medical Center, to continue the 
hospital's operations during the shutdown;
    $2.4 million for the Department of Corrections, for 
contractual obligations related to inmate services;
    $1.1 million for the Department of Public Works, primarily 
for trash hauling and waste management; and
    $1 million to the Department of Health for the Women, 
Infants, and Children program.
    The District was forced to delay a number of regular 
payments due to limitation on its funds.
    The first payment the District delayed was our quarterly 
contribution to the Washington Metropolitan Area Transit 
Authority (WMATA). This $114 million payment was due by October 
10, but because of the limited amount of appropriated funds 
available in the Contingency Reserve, we were unable to pay the 
full amount. The District made a partial payment of $34 million 
from its capital budget. WMATA was able to continue operations 
with its funds on hand, and the District's remaining operating 
funds payment was made promptly after the shutdown ended.
    Further, the District directed the D.C. Water and Sewer 
Authority to tap their cash reserves to continue operations 
during that Federal shutdown period. Also, two payments to 
Medicaid providers were delayed. The first payment, for $89 
million, was due on October 1; the second one, for $35 million, 
was due on October 7.
    During the shutdown, the Federal employees were eligible to 
make claims for unemployment insurance payments. In October 
2012, the District logged just under 4,000 regular unemployment 
insurance claims. In October 2013 that number jumped to over 
8,600. Federal claims for October 2012 were 120; claims in 
October 2013 were over 15,500. The District Department of 
Employment Services, the agency that manages the unemployment 
insurance program, was able to maintain its high level of 
service, but if the shutdown had continued, a very real 
potential existed for insolvency of the unemployment insurance 
fund due to the massive increase in claims without access to 
Federal borrowing to pay for the increased claims.
    Also, during the shutdown the Mayor directed the Department 
of Public Works to collect trash that was accumulating at a 
number of public sites under the jurisdiction of the National 
Park Service. I believe it was 372 locations. The Mayor took 
this action in order to address public health concerns and 
resident complaints. The District incurred costs of 
approximately $92,000 to provide this service, which took place 
from October 5 through October 16.
    As you can see, the District's success during the most 
recent shutdown was due to the Mayor's unfailing commitment to 
continue to provide services to the 647,000 District of 
Columbia residents and the ability to use funds that were 
available for unplanned needs.
    I am sure you will agree that this is not an appropriate 
way for the District of Columbia, the Nation's capital, to 
operate. There is no reason that local funds raised through 
local taxes paid by District of Columbia residents and spent by 
the District of Columbia government should be entangled in 
Federal debates on Capitol Hill. Having the District of 
Columbia government's budget ensnarled in the Federal 
appropriations process unnecessarily threatens the District of 
Columbia's financial stability.
    The Mayor appreciates that Congress has recently passed 
legislation that would permit the District of Columbia to spend 
its local funds in fiscal year 2014 as well as in fiscal year 
2015 in the event that Congress has not passed a budget. While 
this temporary fix is helpful, residents of the District of 
Columbia need more. The obvious solution is to eliminate the 
threat of shutdown by enacting legislation that would separate 
the District's locally raised tax dollars from the Federal 
budget. Budget autonomy is a commonsense and practical step 
that would provide financial security to the Nation's capital 
and to its nearly 647,000 residents.
    On behalf of Mayor Vincent Gray and the people of the 
District of Columbia, I ask that you move legislation that 
would give the District control over its local funds as soon as 
possible.
    That concludes my testimony. I am available to answer any 
questions.
    Senator Begich. Thank you very much.
    Our next and last speaker is Robert Vogel, the 
Superintendent of the National Mall and Memorial Parks, a unit 
of the National Park Service, for which he has worked for 30 
years. He is responsible for managing daily operations at The 
Mall, including some of the highest-profile monuments and other 
public parks throughout the city.
    Thank you very much for being here.

 TESTIMONY OF ROBERT VOGEL,\1\ SUPERINTENDENT OF THE NATIONAL 
         MALL AND MEMORIAL PARKS, NATIONAL PARK SERVICE

    Mr. Vogel. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vogel appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    From October 1 through October 16, 2013, the National Park 
Service, along with other bureaus and offices of the Department 
of the Interior, implemented a shutdown of our activities due 
to a lapse in appropriations.
    In a shutdown caused by a lapse in appropriations, all 
Federal agencies are required by law to shut down any 
activities funded by annual appropriations that are not 
excepted by law. Because the Antideficiency Act prohibits 
Federal agency officials from incurring financial obligations 
in the absence of appropriations, the National Park Service was 
forced to close all 401 National Park units and suspend 
operations. All park grounds, visitor centers, concessions, and 
park roads, including those in the District of Columbia, were 
required to be closed, and more than 20,000 National Park 
Service employees were furloughed.
    This closure did not apply to through-roads in parks that 
provided primary access between points located outside of the 
parks, such as Rock Creek Parkway. It also did not apply to 
First Amendment activities at the National Mall and Memorial 
Parks.
    During the closure, the National Park Service maintained 
security staff, including services provided by the United 
States Park Police and rangers, for emergency and disaster 
assistance. We also coordinated with the government of the 
District of Columbia on road closures and other critical life 
and safety issues. Projects that were funded from non-lapsing 
appropriations, such as the Washington Monument restoration, 
continued.
    There was a great deal of attention paid to the 
implementation of the shutdown with respect to the monuments 
and memorials on the National Mall. On a normal day, there are 
300 National Mall and Memorial Park employees on duty. They are 
onsite to provide the eyes and ears for the U.S. Park Police 
and ensure the safekeeping of our national treasures, as well 
as maintaining the landscape, and enhancing the visitor 
experience.
    All but a dozen of the National Mall and Memorial Parks 
employees were furloughed. Even though the U.S. Park Police 
commissioned officers were excepted from the furlough, prudent 
steps were taken to secure life and property at these national 
icons.
    In managing the closure, we worked to balance our legal 
obligations with the needs of our veterans who often visit war 
memorials on the National Mall. Throughout the shutdown, we 
worked with the Honor Flight Network and others to try to 
ensure that veterans were not turned away.
    We are very aware that the District of Columbia government, 
businesses, and organizations that operate in the District, as 
well as residents, experienced disproportionate negative 
impacts from the closures of the sites managed by the National 
Park Service. We have a great deal of sympathy for those that 
experienced a disruption of activity and a loss of revenue.
    The National Park Service does not plan for shutdowns; 
rather, we take pride in ensuring that the public has access to 
this Nation's treasures. So making our sites unavailable to the 
public was very painful to our staff, but necessary under the 
law. It was an enormous relief when Congress approved 
appropriations to fund the government through the remainder of 
fiscal year 2014, and we hope to have continuous funding in 
future years.
    Thank you.
    Senator Begich. Thank you all very much, and I agree with 
your last statement there. I hope so, too.
    First I want to start with Congresswoman Norton. Thank you 
for your testimony. Thank you for your advocacy for years on 
the issue of budget autonomy. I have a unique role here not 
only chairing this Committee, but I sit on the Appropriations 
Committee. So when you made the comment that appropriators 
would not have a problem with it, I do not have a problem with 
it. I think budget autonomy, also as a former mayor, makes a 
lot of sense in the sense of the work you need to do.
    If I can ask just a couple of questions, then I have a 
couple for several here, but if you could look at the 
District--and obviously you do every day--what would be the one 
or two most challenging issues for the District to look at, not 
only current but down the road for the District, that you see 
kind of materializing, assuming that the government is funded, 
you fund it, everyone is moving forward? But what would be the 
challenges that are kind of sitting out there with Washington, 
DC, at this point?
    Ms. Norton. First, Mr. Chairman, I did not recognize you 
were on the Appropriation Committee, so I need to thank you, 
because the Senate Appropriation bill, in fact, did give the 
District budget autonomy.
    Mr. Chairman, I can say to you truthfully that while the 
District has the challenges of big cities, its major challenges 
today come from the Congress, and let me give you two examples.
    First is the budget autonomy example, and here leave aside 
shutdowns. Suppose the government, in fact, was on regular 
order--and it has not been on regular order now for years. But 
our appropriation got out; it got out on time. The very act of 
bringing the budget here cost the District on Wall Street. The 
District's budget has to be prepared many months in advance 
because it is now on the Federal, not its own or the typical 
time table--and its forecasts, therefore, are often wrong. You 
cannot forecast with that kind of timeframe.
    The District schools--and that is where our biggest 
challenge is, if you were looking only at the city, Mr. 
Chairman, and our schools have improved significantly. In fact, 
they had, according to the nationwide tests, the best 
improvement of any school system in the United States. And it 
is the first priority of the city. But the schools are also put 
at a disadvantage because the District dare not spend its funds 
until it gets permission--and I use that word advisedly--from 
the Federal Government.
    So I would say that the bundle of issues--that is the only 
way to talk about them, because they are many--that are 
encapsulated by having to bring the budget you raise to a body 
that has no information about it and has no reason to care 
about it is the No. 1 problem.
    Mr. Chairman, added to that is one that my good friend 
spoke about, and we call it ``legislative autonomy,'' but I 
decided this year, in introducing it as my first bill of the 
year, to call it the ``D.C. Paperwork Reduction Act.'' This 
bill makes the budget autonomy bill look mildly efficient, 
because that one means that the District has to pass bills 
three times. According to the Council, about 65 percent of its 
work comes from having to pass bills because some of what they 
have to get done has to be done right away, and the Congress 
under the Home Rule Act requires District legislation to, and 
the word is, ``layover'' in the Congress for 30 of the 
Congress' legislative days or, in the event of criminal 
legislation, 60 legislative days.
    Well, consider, Mr. Chairman, how often the Congress is out 
of session. That is simply the way Congress has always acted.
    To give one example, it was not one of the most important 
bills in the Councils, but they changed the word ``handicap'' 
to ``disability.'' It took 9 months to become final.
    Issues of far greater importance go through this same 
process. Now, you might say, well, in the Home Rule Act, 
Congress obviously wanted to make sure that the District was 
passing legislation that was only for the District and not 
Federal. Mr. Chairman, almost immediately the Congress 
abandoned the layover period. The layover period is simply not 
used.
    If the Congress, in fact, finds something in the District 
that it wants to overturn, it uses the Appropriation bill. Only 
three times in 40 years has the Congress used the layover 
period to overturn DC legislation; two of those times the 
District did something by mistake. These were close issues, and 
it was not clear whether they were Federal or District issues. 
The District is very careful not to impinge on Federal 
jurisdiction. They only wish that the Federal Government was as 
careful about the District's jurisdiction.
    So I can say to you, Mr. Chairman, yes, we have the 
problems of a big city with too many poor people. We have the 
problems that our infrastructure needs what, frankly, much of 
what we, like every jurisdiction get from the Congress of the 
United States. We have problems in our schools. Those are 
problems endemic to the city. But when I look at major problems 
of the city, the two issues I have named have been put upon the 
District by the Congress and, if lifted off of the District, 
would bring very significant improvements to city operations.
    Senator Begich. Very good. Thank you.
    Congressman Davis, let me ask you, you talked about the 
layover power, but also you gave a little bit of history of 
what it looked like from your viewpoint in the early 1990s 
where the District was and where it kind of progressed. And 
from your looking from outside in during those years, I think 
2003, 2007, when you serve in the Committee capacity, what 
would you say caused that to change? What was it? Was it the 
local communities kind of moving forward? What made that 
change?
    Mr. Davis. Well, it was a combination of things. First of 
all, when we did the Control Board Act, which was in 1995--Mrs. 
Norton was part of that, Alice Rivlin, it was really a 
bipartisan bill that was introduced and signed into law 10 days 
later, real bipartisan--we created an independent chief 
financial officer, who cannot be removed. So we get good 
numbers out of the city. We upped the Inspector General. We 
rearranged, took away the debt service----
    Senator Begich. Let me interrupt you. So the CFO position 
you did, when you say independent, is it almost like an 
independent auditor position versus a traditional CFO that 
might work for a mayor?
    Mr. Davis. No, it is like a--I will yield to Allen on that.
    Senator Begich. I am just thinking in my days as mayor, I 
had a CFO, I had a city manager. They worked directly for me, 
and I could remove them at any point.
    Mr. Lew. No, the Mayor cannot remove him at any point, but 
it is kind of like a product of the Financial Control Board 
era.
    Senator Begich. OK.
    Mr. Lew. But, the CFO is viewed as having autonomy and 
independence, and it served the city well in the last 20 years, 
and it has allowed the city to hit AAA bond ratings. It got out 
of its junk status.
    Senator Begich. Who appoints or how does that person get 
selected?
    Mr. Lew. In this case, when Nat Gandhi decided to retire, 
the Mayor actually asked former Mayor Tony Williams, who was 
the first CFO, and Alice Rivlin to co-chair a search committee, 
and they brought in an executive recruiter, and there was about 
maybe eight or so prominent citizens in the District. Many 
private executives were on this committee, the search 
committee, and they did a national search, and they found 
several candidates, finalists. Of the three finalists, the 
Mayor interviewed them and then chose one, and the new CFO just 
really began working about a month ago, Jeff DeWitt from 
Arizona.
    Senator Begich. So they can put them in, but they cannot 
take----
    Mr. Davis. They cannot take him out, so----
    Senator Begich. That is the question.
    Mr. Davis. Exactly, and that has made all the difference in 
the world. You get balls and strikes called fairly. It is not 
political.
    But, look, if the city does not balance its budget, the 
Control Board comes into power.
    Senator Begich. Right.
    Mr. Davis. That is huge leverage. We rearranged the city 
services. It operates more like a city. They were doing a lot 
of State functions before in the criminal justice area, with 
prisons and those kind of things. We got rid of the unfunded 
pension liability that the city had. It was billions of dollars 
hanging over its neck.
    Ms. Norton. That was proposed by----
    Mr. Davis. They got a bad deal with the bidding, but 
Congress straightened out the bad deal they had given the city, 
I guess is the best way to put it. But, by and large, the 
voters have also shared some responsibility. If you take a look 
at the quality of people running and so on, it is not all 
perfect. I come from Virginia. It is not all perfect in 
Virginia either. [Laughter.]
    But it has worked very well.
    Senator Begich. Right.
    Mr. Davis. And you have gotten responsible people, and the 
proof is in the pudding. You take a look at the tax base. It 
has expanded. The budget is growing. The population is growing. 
It was actually decreasing 20 years ago. They were losing 
businesses and losing people.
    Senator Begich. Businesses are investing.
    Mr. Davis. Absolutely. It is a reinvestment. As you know, 
the tax base is everything to a city.
    Senator Begich. That is right.
    Mr. Davis. And they have had leadership now that recognizes 
the tax base is not here automatically. You have to attract it. 
So it is a number of things that have brought the city to where 
it is, but it is a vibrant city. And you can drive around not 
just the downtown by the Verizon Center, but there are nodes 
all over the city that are redeveloping quickly, and I think 
the prospects continue in that way.
    Senator Begich. Let me ask you, Mr. Lew, what Congressman 
Davis just said made me think about it, and what Congresswoman 
Norton said, in regards to the financial condition. Give me a 
sense--first, so I understand your overall budget--what 
percentage is locally driven dollars versus----
    Mr. Lew. I would say about two-thirds. Our overall budget 
is close to $10 to $12 billion. About two-thirds of it consists 
of local monies, and----
    Senator Begich. So fees, property taxes, sales taxes----
    Mr. Lew. Income tax, sales tax, real estate taxes. The rest 
of it, the Federal dollars, generally are the same kind of 
Federal dollars that would be----
    Senator Begich. In any city.
    Mr. Lew. For any city or any State.
    Senator Begich. Grants and things like that.
    Mr. Lew. Right, yes.
    Senator Begich. And you mentioned the AAA bond rating that 
D.C. has. I am assuming back in the 1990s it was not that----
    Mr. Lew. It was DDD, which is junk bond status.
    Senator Begich. Yes, junk bond status.
    Mr. Lew. And I think at that time there was, as opposed to 
$1.5 billion in the surplus, there was like minus $500 million. 
So the spread has actually been $2 billion.
    Ms. Norton. Mr. Chairman, I ought to say that while that 
had something to do with the management of the city, it had 
everything to do with the fact that the city then was paying 
not only for $5 billion in pension liability that the Federal 
Government had accrued pre- Home Rule; it was also paying for 
state functions that no city in the United States paid for. It 
continues to pay for some State functions. But the 
Revitalization Act that Tom Davis and I worked on took some 
State functions from the District of Columbia, and that plus 
lifting the $5 billion pension liability from pre- Home Rule DC 
helped lift the city immediately out of its dire straits.
    Senator Begich. Very good. Congressman Davis.
    Mr. Davis. And the expanded tax base has made a huge 
difference, too, in terms of the city revenue.
    Mr. Lew. Yes. As Congressman Davis mentioned, we have 
roughly 1,200 new residents every month joining the District.
    Senator Begich. Wow.
    Mr. Lew. And, many professional, educated, dual-career 
families are moving in, and so I think it has also helped. 
Basically you see it throughout the city, strollers and 
children, and the school system is actually seeing--for, I do 
not know, maybe over a decade or more, two decades, the school 
population was declining and declining and declining. Now it is 
actually going the other direction.
    Senator Begich. I am assuming when you do the work with 
Wall Street with regards to bonds and other things, you are 
part of that equation, or you at least are aware of some of the 
activity that goes----
    Mr. Lew. Yes, generally the delegation is the Mayor, the 
Chairman of the Council, the Chairman of the Finance Committee.
    Senator Begich. Right.
    Mr. Lew. Eric Goulet, who is sitting in the back, our 
Budget Director, and I.
    Senator Begich. OK.
    Mr. Lew. And the City Administrator and I are part of this 
annual pilgrimage to Wall Street.
    Senator Begich. All right. I am assuming--and I kind of 
heard the comments. I just want to put it on the record again 
from your perspective as part of that team. I am assuming in 
the world of Wall Street that the more stability, certainty 
with your budgetary revenue streams or control that you have, 
makes them much more comfortable in the long term for working 
with you folks.
    Mr. Lew. Definitely.
    Senator Begich. Is that something that comes up in the 
conversations when you do your--and I know these experiences as 
mayor. We would have to go to New York.
    Mr. Lew. Yes. And even the fact that, last year, when other 
cities were still suffering from the recession, we were getting 
an upgrade, and hopefully this year we will get another 
upgrade. So the city is doing really well. The city is, and I 
think the Washington Post reported maybe 2 years ago that 
operations, city operations, and services had improved over a 
10-year period from the time when Tony Williams was Mayor and 
then on through Adrian Fenty and then the first part of Vincent 
Gray's term. And they actually indicated that the first part of 
the Vincent Gray administration in 2011 showed a spike. There 
was actually a greater improvement in spite of the fact that we 
were furloughing staff, and we had a larger budget pressures, 
and our reserves were spent significantly down at that point. 
And we have been able to--between 2011 and this year, we have 
been able to go from 700-something million reserve back to 
north of $1.5 billion.
    Senator Begich. Very good. Let me ask, if I can, Robert 
Vogel, I do not want this to be an uncomfortable question, but 
I need to ask it so I understand it, and I am thinking from my 
own perspective as a former mayor. When you went into the 
shutdown, when we all went into the shutdown here, you had by 
law to do certain things. But here is what we heard as the 
biggest complaint. If you can respond to this. It is one thing 
to close down or fence off a building, a structure, because you 
do not want people wandering in there, you do not know what is 
going to happen. But in actual park--just so you know, I could 
never imagine doing that in the city of Anchorage. I could 
imagine fencing off the skate facility so people are not inside 
there and doing things, or the recreational buildings, but the 
actual park is what it is. Do you think--and I might give you 
an easy out on this question. I mean, the way that was handled 
caused a lot of controversy, and I want to say I agree with the 
people on this one, that this was problematic. Do you think and 
are you looking at this--not that we ever want to think about a 
shutdown again. No one wants to. But are you thinking of a 
different approach? I understand the law as interpreted--no 
disrespect to lawyers. I am not a lawyer. I never want to be 
one. They always take the more conservative role on everything. 
But I also know lawyers have two opinions based on the client. 
And so it seemed like there was not some push here with whoever 
said the interpretation of the law is we have to fence these 
things off. In reality, I get the building structure issue. 
There is a liability there. But walking across a park, no one 
is going to pick up, the World War II Veteran Memorial concrete 
and walk off with it.
    I have been to the midnight tours of these parks. They are 
not shut down. They are open all the time. We are not staffing 
them at those levels. We have some security to a certain 
extent, but very limited, to say the least, on those. So help 
me understand that. And then what is the plan in the future? 
Because what happens with you affects the D.C.--I mean, when 
you have visitors coming that want to spend money in the 
economy, they now do not have a venue to go to. The only venue 
they would come to, to be frank with you, is our office, which 
was OK, but they were not happy. So help me understand that.
    Mr. Vogel. Surely. It was difficult, and, of course, we 
will continue to evaluate that. I think I should clarify that 
we did not close--we intentionally worked very hard to make 
sure that we were inconveniencing the public at a minimum that 
we could. We do get over 25 million visits on the National Mall 
each year, and during this time period of the closure, we 
estimate that in a normal October time period like that we 
would get over 1 million visitors.
    So that huge number of visitors going to key memorials is 
problematic. We do have staffing 24 hours a day. We have 
rangers on duty until usually 10 or 11 o'clock at night and 
U.S. Park Police all the time. And I would say that late at 
night our visitation levels are much lower.
    So our ability to protect the memorials, which clearly is 
our mandate by Congress, we felt really did require us to 
barricade in key locations, and that we needed to put the 
barricades so that, hundreds of thousands of people would not 
come into the sites and cause real impacts to them. I mean, 
vandalism certainly could be an impact, but certainly trash and 
the need to use restrooms and our fountains were not on, and 
there is a key staffing requirement to provide that legal 
mandate to protect the memorials.
    These are national treasures that are entrusted to our 
care, and we take the responsibility very seriously. We made 
sure throughout the National Mall that we had key locations. We 
said let us not make people walk five blocks to get around the 
National Mall. Technically the entire National Mall and 
Memorial Parks was closed to the public, but I think we tried 
to work very closely to allow people to cross over The Mall and 
recognize that people were going to enter The Mall, but try to 
keep them out of the key memorials to protect them. And I would 
just use an example of last year's unfortunate paint-splashing 
vandalism of the Lincoln Memorial. And so we do feel that that 
large concentration of visitors which we would have that time 
of year would really be problematic without our staff, which is 
very critical to protect the resources.
    Senator Begich. Are you re-examining your policy?
    Mr. Vogel. I do not think we are actively re-examining it. 
I think certainly if we went through the shutdown again we 
would evaluate what worked and what did not. I think that we 
hope we will not be in the situation again. I do feel like we 
tried very hard to make prudent decisions that are defensible 
for protection of the resources.
    Senator Begich. I appreciate that. Thank you. I would make 
one point. When the vandalism did occur, we had full staffing 
and capacity.
    Mr. Vogel. That is correct.
    Senator Begich. So not always when fully staffed can we 
prevent things.
    Mr. Vogel. That is correct.
    Senator Begich. As a former manager or mayor, we had lots 
of parks, and yet you cannot manage them all in the sense of 
full oversight on them, and you are going to have some issues. 
But I would hope that--let us hope there is not another 
shutdown, but in the hopes of another shutdown that we have 
more review of how we approach this, recognizing that they are 
national treasures, but at the same time, no one is coming in 
and walking away with the Martin Luther King monument. It is a 
little large. But at the same time, access is what makes these 
parks very valuable, and most people are very respectful of the 
parks. We do have some, as you know--and I have seen it--where 
they are not too respectful. But generally we do. Open or 
closed, they are going to respect the parks because they are so 
unique in their own way.
    But I would just encourage you, as you guys think of the 
long term, what is the next step if there is ever one, and if 
there is something that we need to do here, you should let us 
know. And I would be happy to work with you folks on that.
    Mr. Vogel. Thank you.
    Senator Begich. Let me ask a couple more just real quick, 
and then we will close out the hearing. Congresswoman, the bill 
that Congressman Issa is moving forward, you had mentioned 
there are some issues that might be on the bill. Is that 
something that you could at some point--I know my guess is our 
staff has talked to yours to a certain extent, but would you be 
willing to pursue that with us to understand what those 
concerns that you have on that specific bill with Congressman 
Issa in regards to budget autonomy? And I would also say that 
on the other piece, I could not imagine me sending my local 
ordinances to the State legislature for their rejection or 
review. It would be ridiculous. First off, having them do 
something in 30 days is in itself a miracle, and here it is a 
real miracle. So that would be--just to let you know, that is 
something I would be interested in pursuing further with you. I 
think especially because the exercising of it has been so 
limited, and it was mentioned by both of you that the capacity 
for Congress to interject itself through the appropriations 
process is really where it has been done in the past anyway. So 
why have another layer?
    Ms. Norton. Mr. Chairman, I am very pleased that you would 
be willing to do that. Chairman Issa has worked on the budget 
autonomy bill. He has not worked on this bill as much----
    Senator Begich. Correct.
    Ms. Norton [continuing]. Although I am talking with him 
about this bill. And his concern is that he is an authorizer. 
And, of course, I say, what has been the case, it is the 
appropriators who, if they want to do damage, it is they who 
have done it.
    Senator Begich. Right.
    Ms. Norton. So he had tried something a little more 
complicated as a way to approach it, but since I have 
introduced this bill, he has indicated he is open to talking 
with me again about how to do it. So I would very much like to 
talk with your staff.
    Senator Begich. Fantastic. Thank you.
    Let me end on this. One, first, thank you all. I wanted to 
have this hearing basically on the shutdown, but also on what 
we do to solve it, and it is clear to me that, especially after 
this hearing, the way to approach this is creating budget 
autonomy is the first step. That would give the flexibility and 
authority of the District to operate, at least two-thirds of 
their resources, or more, depending on the full budget and how 
it is being used or obligated at the time. Also down the road, 
the whole issue of the layover power, to deal with that at some 
point. But I will tell you, I am a supporter of budget 
autonomy. I think it is important. I mean, you have just 
confirmed it even more to me. I had my instincts as a former 
mayor, but now sitting in this role, I am even more convinced 
after today that what inaction or action we take here in 
Congress should not impact a city at the magnitude we do with 
your city.
    Now, we get it that if we do not move money for certain 
grants and so forth, there is going to be some impact. That 
happened, as I stated, in Alaska in many ways. But it should 
not cause a shutdown of a city, especially right here where it 
is critical to keep the functions moving. So I will be anxious 
to work on preparing something that we can bring forward, 
because the faster we do this, to be frank with you, one less 
thing Congress has to meddle in that they do not need to meddle 
in. That is just my own view. Do what we do best, which I am 
still struggling to figure out those pieces of what we do best, 
figure out what we do not do well, and let the people who are 
doing it well--and you have put in the record some really good 
information, especially Mr. Lew in regards to the financial 
issues that continues to be problems for other cities in some 
ways. And when you about a surplus, I think every city would 
love to have a surplus at the size that you have, and that is a 
very positive statement. And a AAA bond rating, that is like 
platinum to a city. That is just property taxpayer money being 
saved every day without that kind of rating. So thank you for 
the information.
    Unless there are some additional comments folks might have, 
I want to go ahead and close it, but if anyone else has any 
last comments I am happy to open up the mic to you.
    [No response.]
    Very good. Well, thank you all very much. Thanks for taking 
the time. At this time the meeting is adjourned. Thank you.

    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 
                                 [all]
</pre></body></html>
